HHS/OIG, Audit -"Results of Audit Work Performed at Trailblazer Health Enterprises, LLC as part of the Office of Inspector General's Nationwide Determination of the Fiscal Year 2002 Medicare Error Rate,"(A-06-03-00021)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Results of Audit Work Performed at Trailblazer Health Enterprises, LLC as part of the Office of Inspector General's
Nationwide Determination of the Fiscal Year 2002 Medicare Error Rate," (A-06-03-00021)
July 21, 2003
Complete
Text of Report is available in PDF format (869 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report provides the results of our audit work performed at TrailBlazer Health Enterprises,
LLC (TrailBlazer) as part of the Office of Inspector Generals nationwide determination of the fiscal year (FY) 2002 Medicare
error rate.  Our audit work at TrailBlazer was limited to: (1) identifying all of the Medicare claims paid during
the FY 2002 first quarter; (2) verifying the accuracy of Medicare benefit payments and other data reported by TrailBlazer
to the Centers for Medicare and Medicaid Services (CMS); and, (3) reviewing, with assistance from the TrailBlazer medical
staff and the Texas and New Mexico Quality Improvement Organizations, a statistical sample of Medicare beneficiary expenditures
paid during the first quarter for compliance with Medicare requirements.  We identified several areas where TrailBlazer
reported incorrect information to CMS.  In addition, we noted improper claims that resulted in net questioned costs
totaling approximately $93,863.  We recommended correction of procedural weaknesses and a financial adjustment for
the $93,863.